NO

n

liiil
IN THE
SUPREME COURT OF THE UNITED STATES
FILED
FEB 2 8 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

HERMAN TRACY CLARK
PETITIONER
Vs
JEROLD BRAGGS, WARDEN
RESPONDENT

a
►

On Petition For Writ Of Certiorari
To The Tenth Circuit Appeals Court

RECEIVED
JUL 15 2020
OFFICE OF THE CLERK
SUPREME COURT, uls

PETITION FOR WRIT OF CERTIORARI
28 U.S.C. § 2241 HABEAS CORPUS

HERMAN T. CLARK #368606
LCC 5-G2-J
P.O. BOX 260
LEXINGTON, OK 73051

RECEIVED
AUG 2 6 2020

QUESTION PRESENTED
Whether the word “shall” binds the Oklahoma Pardon and Parole Board
decision that must be pursued in the ordinary mode prescribed by law, to
be adapted to the end to be attained in respect to the justice of the
Governor who has the sole power to grant commutation subject to the
regulations prescribed by law to protect Petitioner’s liberty interest
under the Due Process Clause of the Fourteenth Amendment?
Whether impartiality binds the Pardon and Parole Board is-to preserve
the impartiality of the state and preserve the appearance of the
impartiality of the state in respect to the Petitioner’s interest in the
reason for the Pardon and Parole Board’s decision?
And, do a 28 U.S.C. § 2254 AEDPA restriction also bar grieving the
Government for redress of the Pardon and Parole Board’s commutation
and parole consideration procedure challenging the duration of his
physical imprisonment by way of a 28 U.S.C. § 2241, relief seeking a
determination that entitles immediate release or a speedier release with a
definite sentence?

LIST OF PARTIES
Oklahoma Pardon and Parole Board, and
Oklahoma Attorney General.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.......2
STATEMENT OF THE CASE

5

REASON FOR GRANTING WRIT

8

ARGUMENT

8

CONCLUSION

17

CERTIFICATE OF SERVICE

18

INDEX OF APPENDICES
Appendix 1. Clark v. Braggs, No. 19-6105, Tenth Circuit Court of Appeals, Order
Denying Certificate of Appealability, October 30, 2019.
;■ Appendix 2. Clark v. Braggs, No.CIV-19-360-D, U.S. District Court for the Western
District of Oklahoma, Order, adopting Report and Recommendation, Petition for Writ of
Habeas Corpus Under 28 U.S.C. § 2241 is DISMISSED without prejudice to a future
filing and COA is DENIED, June 13, 2019.
Appendix 3. Clark v. Braggs, No. CIV-19-360-D, U.S. District Court for the Western
District of Oklahoma, Report and Recommendation, May 09, 2019.
Appendix 4. Clark v. Braggs, No. 19-6105, Tenth Circuit Court of Appeals, Order,
Appellant’s petition for rehearing is denied, December 3, 2019.
There was no mention of the State’s Habeas Corpus appealed in the Oklahoma Court of
Criminal Appeals or the District Court of Cleveland County.

iii

TABLE OF AUTHORITIES
CASES
Connecticut Bd of Pardons v. Dumschat. 101 S.Ct. 2460, 2464, 452 U.S. 458 (1981)
14
Fields v. Drisel. 941 P2d 1000, 1005 (Okla. Crim. 1947)

8

Fields v. State.

9

Goldberg v. Kelly. 397 U.S. 254 (1970)

15

Greenholtz v. Inmates of the Nebraska Penal and Correctional Complex.
442 U.S. 1,99 S.Ct. 2100(1979) ........... ........................................

13

Kentucky Den’t of Corrections v. Thompson. 490 U.S. 454, 461 (1989)

14

Petition of Lease. 207 P.2d 365, 368 (Okla. Crim. 1949).......................

9

Phillips v. Williams.

9

Republican Party of Minnesota v. White.
536 U.S. 765, 122 S.Ct. 2528, 153 L.Ed.2d 694 (2002)

15

United States v Furman. 112 F.3d 435 (10th Cir. 1997

16

Ward v. Province. 283 Fed.Appx. 615 (10th Cir. 2008)

10

CONSTITUTION AND STATUTES
Article VI, Section 10, Oklahoma Constitution

2, 3, 7, 8, 9

First Amendment to U.S. Constitution

2, 5, 15

Fourteenth Amendment to U.S. Constitution

2, 5, 14

1997, HB 1225, c. 333, § 23, Emerg. Eff. July 1, 1997

12

21 O.S. §701.1(2)

4, 5,7

21 O.S. § 14

4, 7,8

IV

28 U.S.C. § 1257(a)

2

28 U.S.C. §2241

3, 5, 5, 15

57 0.S. Supp. 1947 § 332.7(A)

9

57 0.S. Supp. 1991 § 332.7 (A)

9

57 O.S. § 332.7(A) (1) [parent right]

passim

57 O.S. § 332.7 (F)

4,7

57, O.S. § 332.7 (G)

4,7

57 O.S. § 332.7 (0)

4,7

RULES
Supreme Court Rule 22

,2

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORORI
Petitioner prays The Court to exercise its jurisdiction options to review his liberty
interest right below that is protected by the Federal Constitution.
OPINIONS BELOW
Appendix 1. Clark v. Braggs, No. 19-6105, Tenth Circuit Court of Appeals, Order
Denying Certificate of Appealability, October 30, 2019.
Appendix 2. Clark v. Braggs, No.CIV-19-360-D, U.S. District Court for the Western
District of Oklahoma, Order, adopting Report and Recommendation, Petition for Writ of
Habeas Corpus Under 28 U.S.C. § 2241 is DISMISSED without prejudice to a future
filing and COA is DENIED, June 13, 2019.
Appendix 3. Clark v. Braggs, No. CIV-19-360-D, U.S. District Court for the Western
?>

District of Oklahoma, Report and Recommendation, May 09, 2019.
Appendix 4. Clark v. Braggs, No. 19-6105, Tenth Circuit Court of Appeals, Order,
Appellant’s petition for rehearing is denied, December 3, 2019
There was no mention of the State’s Habeas Corpus appealed in the Oklahoma Court of
Criminal Appeals or the District Court of Cleveland County

1

JURISDICTION
The date which rehearing was denied by the Tenth Circuit was December 03,
2019.
The Jurisdiction of This Court is invoked under 28 U.S.C. § 1257(a), Supreme
Court Rule 10(a), (c) and Supreme Court Rule 22.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
First Amendment to U.S. Constitution
Congress shall make no law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of the press, or the right of
the people peaceably to assemble, and to petition the Government for a redress of
grievances.
v

Fourteenth Amendment to U.S. Constitution
All persons bom or naturalized in the United States and subject to the jurisdiction thereof,
are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life, liberty or property,
without due process of law; nor deny any person within its jurisdiction the equal
protection of the laws.
Article VI, Section 10, Oklahoma Constitution
There is hereby created a Pardon and Parole Board to be composed of five
members; three to be appointed by the Governor; one by the Chief Justice of the Supreme
Court; one by the Presiding Judge of the Criminal Court of Appeals or its successor. An
attorney member of the Board shall be prohibited from representing in the courts of this
state persons charged with felony offenses. The appointed members shall hold their
offices coterminous with that of the Governor and shall be removable for cause only in
the manner provided by law for elective officers not liable to impeachment. It shall be
the duty of the Board to make an impartial investigation and study of applicants for
commutations, pardons or paroles, and by a majority vote make its recommendations to
the Governor of all deemed worthy of clemency. Provided, the Pardon and Parole Board
shall have no authority to make recommendations regarding parole for convicts sentenced
to death or sentenced to life imprisonment without parole.
The Governor shall have the power to grant, after conviction and after favorable
recommendation by a majority vote of the said Board, commutations, pardons and

2

*.

paroles for all offenses, except cases of impeachment, upon such conditions and with
such restrictions and limitations as he may deem proper, subject to such regulations as
may be prescribed by law. Provided, the Governor shall not have the power to grant
paroles if a convict has been sentenced to death or sentenced to life imprisonment without
parole. The Legislature shall have the authority to prescribe a minimum mandatory
period of confinement which must be served by a person prior to being eligible to be
considered for parole. The Governor shall have power to grant after conviction,
reprieves, or leaves of absence not to exceed sixty (60) days, without the action of said
Board.
He shall communicate to the Legislature, at each regular session, each case of
reprieve, commutation, parole or pardon, granted, stating the name of the convict, the
crime of which he was convicted, the date and place of conviction, and the date of
commutation, pardon, parole and reprieve.
Amended by State Question No. 309, Legislative Referendum No. 86, adopted at special
election held on July 11, 1944; State Question No. 525, Legislative Referendum No. 219,
adopted at election held on Nov. 7, 1978; State Question No. 593, Legislative
Referendum No. 257, adopted at election held on Nov. 4, 1986; State Question No. 664,
Legislative Referendum No. 298, adopted at election held on Aug. 23, 1994.
28 U.S.C. §2241
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, the
district court and any circuit judge within their respective jurisdictions. The order of a
circuit judge shall be entered in the records of the district court of the district wherein the
restraint complained of is had.
(b) The Supreme Court, any justice thereof, and any circuit judge may decline to entertain
an application for a writ of habeas corpus and may transfer the application for hearing
and determination to the district court having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a prisoner unless—

* * * *

(3) He is in custody in violation of the Constitution or laws or treaties of the United
States; or
(4) He, being a citizen of a foreign state and domiciled therein is in custody for an act
done or omitted under any alleged right, title authority, privilege, protection, or
exemption claimed under the commission, order or sanction of any foreign state, or under
color thereof, the validity and effect of which depend upon the law of nations; * * * *
1997, HB 1225, c. 333, § 23, emerg. Eff. July 1, 1997

3

21 O.S. § 701.1(2)
(Repealed)
21 O.S. § 14,
“The following definitions apply to the Oklahoma Truth in Sentencing Act
... “(6) “Life imprisonment” means imprisonment for a period of not less
than eighteen (18) years nor more than sixty (60) years.”
57 O.S. § 332.7(A) (1) [parent right]
“For a crime committed prior to July 1, 1998, any person in the custody of
the Department of Corrections shall be eligible for consideration for parole
at the earliest of completing one-third (1/3) of the sentence.”
57 O.S. § 332.7(F) i
“Any person in the custody of the Department of Corrections for a crime
committed prior to July 1, 1998, who has been considered for parole on a
docket created for a type of parole consideration that has been abolished by
the legislature, shall not be considered for parole except in accordance with
this section.”
57, O.S. § 332.7(G)
“The Board shall promulgate rules for implementing the above subsection
A. The rules shall include procedures for reconsideration of persons denied
parole under this section and procedures for determining what sentence a
person eligible for parole consideration pursuant to section A, would have
received under the applicable matrix.”
57 O.S. § 332.7(0)
“All references in this section to matrices or schedules shall be construed
with reference to the provisions of Section 6, 598, 599, 600 and 601,
chapter 133, O.S.L. 1997.”

After the November 1,2019 amendment some lettering changed.
same for the purpose of this review.
4

The language remains the

STATEMENT OF THE CASE
The parties to an impartial parole investigation and study must comply with the
procedural rules of the parole statutes which the Oklahoma Pardon and Parole Board
(Board) is governed. The Board’s authority to promulgate rules for a type of parole
consideration that has been abolished by Oklahoma Legislature is set forth in 57 O.S.
Sections 332.7 (A)-(O).
Petitioner did not receive what was provided in the parole consideration procedure
statute, and exercised his First Amendment right with a 28 U.S.C. Section 2241 habeas
corpus asserting his liberty interest protected by the Fourteenth Amendment to the U.S.
Constitution.
The lower Courts misconstrued the Pardon and Parole Board’s mandatory
procedural duty to determine a definite sentence for a type of parole consideration that is
abolished by the Oklahoma legislature as a discretionary parole. It misconstrued and
foreshortened the § 2241 petition as challenging the validity of his life sentence.
Petitioner was convicted and sentenced in the District Court of Beckham County
in Oklahoma, Case Number CF-75-51, on October 31, 1975 for First Degree Murder
under 21 O.S. § 701.1(2) for the January 6, 1975 crime.

The Oklahoma Court of

Criminal Appeals affirmed his conviction and modified the sentence to Life with parole.
Section 701.1(2) was effective from May 17, 1973 through July 23, 1976 before it was
abolished by Legislature. Petitioner is currently in the custody of Warden Jerold Braggs,
at Lexington Correctional Center, Lexington, Oklahoma in Cleveland County.

5

The Oklahoma Constitution under Article VI, Section 10, created the Board and
provided that, “It shall be the duty of the Board to make an impartial investigation and
study of applicants for commutations, pardons or paroles, and by a majority vote make
its recommendations to the Governor of all deemed worthy of clemency.” (Emphasis
added).
The substance of the Board’s investigation and study is to be impartial. Federal
court decisions describe impartial as preserving impartiality and preserving the
appearance of impartiality of the state. This means a lack of bias for or against either
party, a lack of bias on the issues and a willingness to be open-minded. The appearance
:V of impartiality requires some evidence of impartiality by confronting the prisoner and
providing a reason for dismissing his eligibility for commutation or parole.
In March 2015 the Petitioner became mandatorily eligible for parole consideration
: under Oklahoma Parole statute Section 332.7(A) (1), tit. 57 which used the term “shall”
and provided that,
“For a crime committed prior to July 1, 1998, any person in the custody of
the Department of Corrections shall be eligible for consideration for parole
at the earliest of completing one-third (1/3) of the sentence.”
After being denied parole in 2015 without the “appearance” of impartiality, Petitioner
was reconsidered three (3) years later in March 2018 and denied parole or commutation
recommendation without the appearance of impartiality for a second time.
Subject to the parent right of eligibility for consideration for commutation or
parole the Board’s impartial investigation process includes:

6

1. “Any person in the custody of the Department of Corrections for a crime
committed prior to July 1, 1998, who has been considered for parole on a
docket created for a type of parole consideration that has been abolished by
the legislature, shall not be considered for parole except in accordance with
this section.” 57 O.S. § 332.7(E) [57 O.S. § 332.7(F)]. (Emphasis added).
Petitioner’s crime was committed prior to 1998. The type of parole consideration
and the statute which the crime was committed under, § 701.1(2) has been abolished by
the Legislature. The next definition in accordance with this section provides;
2. “The Board shall promulgate rules for implementing the above
subsection A. The rules shall include procedures for reconsideration of
persons denied parole under this section and procedures for determining
what sentence a person eligible for parole consideration pursuant to section
A, would have received under the applicable matrix.” Title 57, O.S. §
332.7(F) [Title 57, O.S. § 332.7(G)] (emphasis added).
The Board has not promulgated rules required of it as devised with “shall” in the
discretion of the legislative power, which regards and preserves these principles of liberty
and justice.
The third criteria is,
3. “All references in this section to matrices or schedules shall be
construed with reference to the provisions of Section 6, 598, 599, 600 and
601, chapter 133, O.S.L. 1997.” 57 O.S. § 332.7(M) [57 O.S. § 332.7(0)].
(Emphasis added).
And, defined the commutation application,
4. “Oklahoma Sentencing Matrix, Schedule A is first degree murder,
punishment = imprisonment for 18-60 years (life)....”
5. Oklahoma Statute title 21, § 14, “The following definitions apply to the
Oklahoma Truth in Sentencing Act ... “(6) “Life imprisonment” means
imprisonment for a period of not less than eighteen (18) years nor more
than sixty (60) years.”

7

REASON FOR GRANTING WRIT
Petitioner’s question requires an interpretation of 57 O.S. Supp. 2018 § 332.7(G)
which prescribes the “Board shall promulgate rules for implementing the above
subsection A. The rules shall include procedures for reconsideration of persons denied
parole under this section and procedures for determining what sentence a person eligible
for parole consideration pursuant to section A, would have received under the applicable
matrix.” The applicable sentencing matrix, schedule A is punishment for life equals
imprisonment for 18-60 years.

The definition that applies to Oklahoma Truth in

Sentencing Act is “’’Life imprisonment” means imprisonment for a period of not less than
eighteen (18) years nor more than sixty (60) years.” 21 O.S. § 14(6).
The law is clear and unambiguous as applied to a person pursuant to subsection A.
Therefore, commutation became enforceable with the plain language of the statute
construed in its entirety to the end to be attained by prescription. It is necessary here to
review the part of the statute addressing parole eligibility in general starting with the
creation of the Oklahoma Pardon and Parole Board.
The Oklahoma Constitution creates a Pardon and Parole Board with the duty “to
make an impartial investigation and study of applicants for commutations, pardons or
paroles, and by a majority vote make its recommendation to the Governor of all deemed
worthy of clemency.” Okla. Const, art. VI, § 10. “Discharge of an inmate from serving a
lawful sentence rests solely with the Governor” (Fields v. Driesel. 941 P.2d 1000, 1005
(Okla. Crim. 1997)), who, “shall have the power to grant, after conviction and after
favorable recommendation by a majority vote the said Board, commutations ... for all
8

offenses except cases of impeachment, upon such conditions and with such restrictions
and limitations as he may deem proper, subject to such regulations as may be prescribed
by law.” Okla. Const, art. VI, § 10.
After the Pardon and Parole Board was created by constitutional amendment in
1944, the Legislature enacted statutes governing the Board’s duties, including 57 O.S.
Supp. 1947, § 332.7. 1947 Okla. Sess. Laws p. 343, § 1. “This is a very fine provision of
the law, and affords an opportunity to [Petitioner and all others who are confined in the
penal institutions of this state to present their cases to an eminently qualified board for
proper consideration - - a board which may not only consider ‘justice’ to which the courts
are limited, but may extend ‘mercy’ ...” Okla. A.G. Opin. No. 01-47, Nov. 8, 2001.
Until the passage of the Truth in Sentencing Act (1997 Okla. Sess. Laws. ch. 133),
the general parole eligibility statute provided:
■■U7
.jL

r

Upon completion of one-third of the sentence of any person confined in a
penal institution in the state, such person shall be eligible for consideration ■
for a parole, and it shall be the duty of the Pardon and Parole Board, with or
without application being made, to cause an examination to be made at the
penal institution where the person is confined, and to make inquiry into the
conduct and the record of the said person during his confinement ....

57 O.S. 1991, § 332.7(A).
Section 332.7(A) which has been referred to as the “Forgotten Man Act”, Fields v.
State, 501 P.2d 1390, 1394 (Okla. Crim. 1992) and Phillips v. Williams. 608 P.2d 1131,
1133-35 (Okla. 1980), was construed in Petition of Leaser. 207 P.2d 365 (Okla. Crim.
1949) to mean that the Pardon and Parole Board has a mandatory duty to consider

9

inmates for parole after they have served one-third of their sentence, but may, in its
discretion, consider application for parole prior to that time. Id. at 368.
The application of “shall” in subsequent eligibility regulations become confusing
to determine if the provisions of the Oklahoma parole statute are merely directory and
when mandatory or imperative. What is conclusive is whether the prescribed mode of
action is of the essence of what is to be accomplished, or in other words, whether it
relates to matter material or immaterial — to matter of convenience or of substance.
The decisions in the lower Courts conflict with this Court’s cases allowing state
law to create a liberty interest protected by the Due Process Clause. The language of the
Oklahoma Parole Statute was not interpreted in its pure context. The district court stated,
“[f]or some reason, that is unclear, Petitioner seem to believe a legislative change
empowered the Oklahoma Pardon and Parole Board to replace his life sentence with a
term of years” and reasoned Petitioner would need authorization to file a second and
successive. Petitioner’s reasoning is clearly based on U.S. Supreme Court and Tenth
Circuit precedence.
Petitioner urges this Court to grant review on the basis that consideration is
important to the public to promote conceptual clarity of the procedural method in
enforcing the rights established in precedence and substantive law. When the Parole
Board breaks the rule of law it has a duty to enforce, it violates the Due Process Clause of
the Fourteenth Amendment to the United States Constitution, strikes at the principled
character of the agency and society. The meaning of statutory language is a pure issue of
law that stands for Constitutional protection that is not just procedural to a definite
10

sentence for immediate release or a speedier release but extends an abolished procedure
for an indefinite sentence.
ARGUMENT
1- Petitioner is deprived of a fundamental right to entitlement because this
Court’s precedent view that the expectancy provided in the statute is entitled
to some measure of constitutional protection.
The Oklahoma Pardon and Parole Board’s parole consideration system creates an
expectancy entitled to the protections of procedural due process because the applicable
Oklahoma statute, rather than providing for a discretionary consideration, provided that
whenever, “[a]ny person in the custody of the Department of Corrections for a crime
committed prior to July 1, 1998, who has been considered for parole on a docket created
for a type of parole consideration that has been abolished by the legislature, shall not be
considered for parole except in accordance with this section” and “[t]he Board shall
•'p: v- P”

promulgate rules for implementing the above [parent right] subsection A. The rules shall
include procedures for reconsideration of persons denied parole under this [parent right]
section and procedures for determining what sentence a person eligible for parole
consideration pursuant to [parent right] section A, would have received under the
applicable matrix.” (Emphasis added).
The Tenth Circuit has declared in Ward v. Province. 283 Fed.Appx. 615 *1 (10th
Cir. 2008)2 that the provision 57 O.S. § 332.7(A)(1), governing the mandatory calculation

2

Federal Courts have allowed citation of unpublished decisions since 2007. Only those
unpublished decisions issued after January 1, 2007 may be cited. See Rule 32.1, Federal Rules
of Appellate Procedure.
11

of eligibility date for parole is the portion of the Truth in Sentencing legislation that
would apply to prisoners. The provision § '332.7(A) use the term and phrase “shall” be
eligible for consideration for parole. This language is mandatory and creates a liberty
interest for the Petitioner’s consideration for parole and/or commutation upon serving
one-third of his sentence.
This parent right, 57 O.S. Section 332.7(A)(1), entitles Petitioner to a impartial
parole consideration when he has completed one-third of his sentence and was convicted
prior to July 1, 1998.

This provision uses the word “shall” but when it comes to

subsequent provisions that use the term, “shall” becomes a matter of convenience and
immaterial. The Board’s mystification impedes the Board’s impartiality and Petitioner’s
liberty interest protected by the Due Process Clause of the Fourteenth Amendment
In Greenholtz v. Inmates of the Nebraska Penal and Correctional Complex. 442
U.S. 1, 99 S.Ct. 2100 (1979), this Court granted Certiorari to decide whether the Due
Process Clause of the Fourteenth Amendment applies to discretionary parole-release
determinations made by the Nebraska Board of Pardons, and, if so, whether the
procedures the Board currently provides meet constitutional requirement.
The Respondents emphasized that the structure of the provision together with the
use of the word “shall” binds the Board. This Court accepted Respondents view that the
expectancy provided in the statute is entitled to some measure of constitutional
protection. Id. at 12.
Nebraska “shall” system was unusual at the time because no other state system
had been the subject of a circuit court opinion found to be enough like Nebraska’s to
L2

;

establish a liberty interest. However, amended by laws 1997, HB 1225, c. 333, § 23,
emerg. Eff. July 1, 1997, B(l)(2), Oklahoma Legislature adopted the “shall” system and
it has survived subsequent amendments. The more recent was November 1, 2018.
Life with parole is an indeterminate sentencing scheme created by state lawmakers
because they believed in the Parole Board’s judgment for some potential parolees
convicted of murder that should have the possibility of redemption and release. But in a
type of parole consideration that had been abolished by legislature, the Parole Board’s
decision is governed by a substantive predicate to apply the law impartially to
recommend a statutory commutation with a definite minimum and maximum date rule.
Since the 1979 decision in Greenholtz. the Oklahoma Legislature chose to write
“explicit mandatory language” into the parole statute governing the Board’s decision by
specifying the outcome the Board must reach in the investigation and study of the eligible
Petitioner for consideration of parole.
In Kentucky Den’t of Corrections v. Thompson, 490 U.S. 454, 461 (1989), this
Court held that for a prison regulation to create a liberty interest that is protected under
the Due Process Clause it must contain “substantive predicates” governing an official’s
decision regarding a matter directly related to the individual; and employ “explicit
mandatory language” specifying the outcome that must be reached upon finding that the
substantive predicate have been met. Id. at 462-463.
The Oklahoma commutation statute having definitions, criteria and mandated
“shalls” creates a liberty interest, an entitlement, protected by the Due Process Clause.
The Oklahoma Pardon and Parole Board have deprived an entitlement and Petitioner
13

anticipate repudiation of its charged duty to “promulgate rules” for implementing
procedures for reconsideration of persons denied parole and procedures for determining
what sentence a person eligible for parole consideration would have received under the
applicable matrix for a crime and type of parole consideration abolished by legislature.
This Court has also held that “[a] State created right in some circumstances, beget
yet other rights to procedures essential to the realization of the parent right.” Connecticut
Bd of Pardons v. Dumschat, 101 S.Ct. 2460, 2464, 452 U.S. 458 (1981). 57 O.S. §
332.7(A)(1) governing the mandatory calculation of eligibility date for parole
consideration and is the portion of the Truth in Sentencing legislation that would apply to
prisoners, is a parent right.
This Court has decided in Goldberg v, Kelly. 397 U.S. 254 (1970), that state law is
-r

a property interest and illustrates a systematic process that works within the statutory law
impartially. The law is clear that Oklahoma statutory law is a property interest and a
parent right to beget subsequent rights to parole procedure to be applied to meet the
constitutional requirement of the Due Process Clause.
2. The Due Process Clause prohibits the Board’s denial of
commutation recommendation without reason because this Courts
precedent identifies two compelling state interest in preserving
impartiality.
“It shall be the duty of the Board to make an impartial investigation and study ....”
Art. 6, § 10, Okla. Const. There is no evidence in the record to support the Board’s
denial of a commutation recommendation to the Governor, or that Petitioner pose an
unreasonable risk of danger to society.

14

w .

This Court has identified two compelling State interest in preserving impartiality
identified in Republican Party of Minnesota v. White. 536 U.S. 765, 122 S.Ct. 2528, 153
L.Ed.2d 694 (2002).

They are (1) preserving the impartiality of the state and (2)

preserving the appearance of the impartiality of the state.
Where has the Oklahoma Pardon and Parole Board preserved or preserved the
appearance of impartiality? There is none, without some evidence of reason for failing to
enforce the pure and substantive language of the statute. May the Parole Board omit the
law because it is the Parole Board contrary to the Federal Constitution’s Due Process
Clause that hold the Petitioner’s only protection against anarchy? Federal precedence
defines a liberty interest as protected by the Due Process Clause.
The Oklahoma Pardon and Parole Board’s denial of a mandatory determination of
a type of sentence Petitioner would have received under the appropriate matrix for
commutation denied impartial consideration as required by the Oklahoma Constitution at
Art. VI, § 10, in respect to mandatory duties prescribed by law to be adapted to the end to
attained.
The end to be attained is a recommendation to the Governor to commute
Petitioner’s sentence as prescribed by law. The Board’s investigation and study showed
Petitioner had been in prison for forty-three (43) years, had an exemplary record, no
infractions in eighteen (18) years, program completions, college degree, several
vocational trade certifications, certified by the Oklahoma Department of Labor as a
welding inspector, one job offer, one job guaranteed and a place to live. Petitioner was
not promoted past the first stage that consisted of a institutional record study with this
15

apparent worthiness and, the Board did not avail a rule to determine the type of sentence
he would have received for the Governor’s power to grant.
There have been continual efforts by legislative enactments and judicial decisions
to distinguish an entitlement to due process in consideration for parole that is fair and
reasoned for all persons. Despite efforts biases still appear to influence decisions by the
Oklahoma Pardon and Parole Board. The Board cannot disregard a statement of law
intended to channel and establish degrees of probability of action to be accomplished in
performing an impartial investigation and study in a consideration for parole
3. 28 U.S.C. § 2241 seeks a determination that entitles immediate release.
fTenth Circuit precedence holds that, challenges to parole procedures go to
v

execution of sentence and should be brought under 28 U.S.C. § 2241. United State v.
Furman. 112 F.3d 435, 438-439 (10th Cir. 1997).
.Petitioner clearly challenged the Oklahoma Pardon and Parole Board’s “parole
procedure” where the parole statute provides definitions and criteria under the “shall”
system adopted by the Oklahoma Legislature.

The First Amendment to the U.S.

Constitution protects the Petitioners right to petition the Government for redress of
grievances. In this case, § 2241 provides,
(a) Writs of habeas corpus may be granted by the Supreme Court, any
justice thereof, the district court and any circuit judge within their
respective jurisdictions. The order of a circuit judge shall be entered in the
records of the district court of the district wherein the restraint complained
of is had.
(b) The Supreme Court, any justice thereof, and any circuit judge may
decline to entertain an application for a writ of habeas corpus and may

16

r'

transfer the application for hearing and determination to the district court
having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a prisoner unless—

* * * *

(3) He is in custody in violation of the Constitution or laws or treaties of the
United States; or
(4) He, being a citizen of a foreign state and domiciled therein is in custody
for an act done or omitted under any alleged right, title authority, privilege,
protection, or exemption claimed under the commission, order or sanction
of any foreign state, or under color thereof, the validity and effect of which
depend upon the law of nations; * * * *
There is a need to promote conceptual clarity of the procedural method in
enforcing the rights established by substantive law.
CONCLUSION
,\-r
'j •

%

*

Petitioner prays this Court will exercise its options to grant review of the
*•

Oklahoma Pardon and Parole Board’s binding provisions.
June 19, 2020

Respectfully submitted,

Herman T. Clark #"368606
LCC 5-G2-J
P.O. Box 260
Lexington, OK 73051

17

